No. 19-268
IN THE SUPREME COURT OF THE UNITED STATES
_________________
PARK PROPERTIES ASSOCIATES, L.P., ET AL., PETITIONERS
v.
UNITED STATES OF AMERICA
_________________
CERTIFICATE OF SERVICE
It is hereby certified that all parties required to be served have been served with copies of
the BRIEF FOR THE UNITED STATES IN OPPOSITION, via email and first-class mail,
postage prepaid, this 13th day of November, 2019.
[See Attached Service List]
As required by Supreme Court Rule 33.1(h), I certify that the document contains 5196 words,
excluding the parts of the document that are exempted by Supreme Court Rule 33.1(d). I declare
under penalty of perjury that the foregoing is true and correct.
Executed on November 13, 2019.

Noel J. Francisco
Solicitor General
Counsel of Record
Department of Justice
Washington, D.C. 20530-0001
(202) 514-2217
November 13, 2019
Due to the continuing delay in receiving incoming mail at the Department of Justice, in
addition to mailing your brief via first-class mail, we would appreciate a fax or email copy of
your brief. If that is acceptable to you, please fax your brief to Charlene Goodwin, Supervisor,
Case Management Specialist, Office of the Solicitor General, at (202) 514-8844, or email at
SupremeCtBriefs@USDOJ.gov. Ms. Goodwin’s phone number is (202) 514-2217 or 2218.
Thank you for your consideration of this request.

19-0268
PARK PROPERTIES ASSOCIATES, L.P., ET AL.
USA

JENNIFER ARONOFF
MCDERMOTT WILL & EMERY LLP
444 WEST LAKE STREET
CHICAGO, IL 60606
312-984-7747
THOMAS A. GENTILE
WILSON ELSER MOSKOWITZ EDELMAN &
DICKER LLP
FLORHAM PARK, NJ 07932
973-624-0800
MICHAEL B. KIMBERLY
MCDERMOTT WILL & EMERY LLP
500 NORTH CAPITOL STREET, NW
WASHINGTON, DC 20001
202-756-8000
MKIMBERLY@MWE.COM
MATTHEW L. KNOWLES
MCDERMOTT WILL & EMERY LLP
28 STATE STREET
BOSTON, MA 02109
617-535-3885
MKNOWLES@MWE.COM

